APPENDIX TABLE OF CONTENTS
Opinion of the Fifth Circuit
(May 3, 2019) ...................................................... 1a
Order of the District Court
(June 19, 2018) ................................................... 3a
Relevant Statutory Provisions ................................ 13a
Plaintiff’s First Amended Original Complaint
(January 9, 2018).............................................. 20a
Notice of Charge of Discrimination
(August 14, 2017) ............................................. 28a

App.1a
OPINION OF THE FIFTH CIRCUIT
(MAY 3, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________________
ERIC BAGGETT,

Plaintiff-Appellant,
v.
ONCOR ELECTRIC DELIVERY COMPANY, L.L.C.,

Defendant-Appellee.

________________________
No. 18-10918

Appeal from the United States District Court
for the Northern District of Texas No. 3:17-CV-3136
Before: SMITH, WIENER, and
WILLETT, Circuit Judges.
PER CURIAM
Eric Baggett sued his former employer under
Title VII and the Age Discrimination in Employment
Act (“ADEA”). On appeal, he abandons Title VII and
complains only of the dismissal of his ADEA claim.

 Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App.2a
The Equal Employment Opportunity Commission
(“EEOC”) dismissed Baggett’s charge as untimely. We
need not rest our decision on that alleged deficiency,
however. As the district court carefully explained,
“Even if the Court were to ignore the EEOC’s dismissal of the Charge as untimely, the allegations in
the First Amended Complaint are insufficient to state
a claim of age discrimination under the ADEA.
Baggett has not sufficiently alleged two of the elements—
that he was qualified for the position and that he was
(i) replaced by someone outside the protected class, (ii)
replaced by someone younger, or (iii) otherwise discharged because of his age.”
The district court also noted that Baggett “has
already amended his pleadings once, failed to respond
to the Motion to Dismiss, and did not request leave to
amend [, so] allowing Baggett the opportunity to
replead would be futile.” There is no reversible error
in the district court’s determinations. The judgment of
dismissal is AFFIRMED, essentially for the reasons
given by the district court.

App.3a
ORDER OF THE DISTRICT COURT
(JUNE 19, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
________________________
ERIC BAGGETT,
v.
ONCOR ELECTRIC DELIVERY COMPANY, LLC,
________________________
Case No. 3:17-CV-03136-S
Before: Karen Gren SCHOLER,
United States District Judge
This Order addresses Defendant Oncor Electric
Delivery Company, LLC’s (“Oncor”) Second Motion to
Dismiss Plaintiff Eric Baggett’s (“Baggett”) First
Amended Complaint [ECF No. 10]. For the reasons
stated below, the Court grants the Motion.
I.

Origins of the Dispute

Baggett is a 51-year-old male who worked for
Oncor from approximately August 26, 1996, until
March 29, 2017. Am. Compl. ¶ 9. Oncor hired Baggett
as a meter reader, and at the time of his departure
from the company, Baggett worked as a hold queue
representative. Id. ¶ 10.

App.4a
On August 14, 2017, Baggett filed a Charge of
Discrimination (the “Charge”) with the Equal Opportunity Employment Commission (“EEOC”) against
Oncor, alleging that Oncor discriminated against him
on the basis of age in violation of the Age Discrimination in Employment Action of 1967, 29 U.S.C. § 621,
et seq. (“ADEA”). See Def.’s Mot., Ex. A.1 In the
Charge, Baggett alleged that he was denied hire or
promotion on at least three separate occasions because
of his age during his employment with Oncor. Id. The
Charge was dismissed by the EEOC due to being
untimely filed. See Def’s Mot., Ex. B. Upon receipt of
the Dismissal and Notice of Rights from the EEOC,
Baggett had 90 days to file a suit based on the Charge
in federal or state court. See id. Baggett filed his
Original Complaint against Oncor on November 14,
2017, and his First Amended Complaint on January
9, 2018, bringing claims under the ADEA and Title VII
of the Civil Rights Act of 1964, 42 U.S.C. § 2000-e, et
seq. (“Title VII”).
In support of his ADEA claim, Baggett alleges
that he “was unlawfully discriminated against based
on his age and denied promotions/hiring to the positions of DSA, Designer, and Claims Adjuster within
[Oncor’s] organization.” Am. Compl. ¶ 11, According to
Baggett, each time he applied for the positions from
approximately October 18, 2016, until February 2017,
the position was given to a younger, less qualified
employee and/or contractor. Id. Baggett claims that in
1 In his First Amended Complaint, Baggett alleges that he filed
the Charge with the EEOC on July 7, 2017. Am. Compl. ¶ 5.
However, the Charge was signed by Baggett on August 14, 2017 and
stamped “received” by the EEOC on August 14, 2017. See Def’s
Mot., Ex. A.

App.5a
October 2016, he sent an email to upper management
inquiring why he and other coworkers over the age of
50 were being denied jobs or promotions. Id. Baggett
alleges that his concerns were never addressed. Id.
In support of his Title VII claim, Baggett alleges
that from approximately January 2017 until March
29, 2017, Oncor unlawfully retaliated against him in
the form of suspensions and subjected him to a hostile
work environment. Id. ¶ 12. According to Baggett, in
January 2017, he made a complaint to Oncor’s Human
Resources Department regarding his supervisor. Id.
¶ 13. Baggett complained that his supervisor spoke
negatively to him and other employees over the age of
50, as well as required such employees to perform and
complete work in an unreasonable amount of time. Id.
Baggett avers that shortly thereafter, his supervisor
began retaliating against and harassing him by giving
him massive amounts of work to complete in an short
period of time, as well as giving Baggett assignments
which he was not properly trained to complete. Id.
Baggett also avers that he was given written reprimands based on false reports made by his supervisor,
Id. According to Baggett, on or about March 13, 2017,
he was suspended without pay based on an allegedly
false report made by his supervisor. Id. ¶ 14. On
March 29, 2017, Baggett claims he was notified that
he was being terminated based on an allegedly false
report by his supervisor. Id.
Oncor filed its motion to dismiss pursuant to Rule
12(b)(6) on January 22, 2018, arguing that (1) the
First Amended Complaint failed to state a plausible
claim under Title VII and (2) Baggett failed to exhaust
his administrative remedies with regard to both his
Title VII and ADEA claims. Baggett never responded

App.6a
to the Motion. At the March 22, 2018 status conference
hearing held before the Court, Baggett indicated,
through his counsel, that he would stand on his
pleadings.
II.

The Rule 12(B)(6) Standard

When considering a Rule 12(b)(6) motion to dismiss, a court must determine whether the plaintiff
has asserted a legally sufficient claim for relief.
Blackburn v. City of Marshall, 42 F.3d 925, 931 (5th
Cir. 1995). A viable complaint must include “enough
facts to state a claim to relief that is plausible on its
face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007). To meet this “facial plausibility” standard, a
plaintiff must “plead[ ] factual content that allows the
court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009). A court generally
accepts well-pleaded facts as true and construes the
complaint in the light most favorable to the plaintiff.
Gines v. D.R. Horton, Inc., 699 F.3d 812, 816 (5th Cir.
2012). But a court does not accept as true “conclusory
allegations, unwarranted factual inferences, or legal
conclusions,” Ferrer v. Chevron Corp., 484 F.3d 776,
780 (5th Cir. 2007). A plaintiff must provide “more
than labels and conclusions, and a formulaic recitation of the elements of a cause of action will not do.”
Twombly, 550 U.S. at 555 (internal citations omitted).
“Factual allegations must be enough to raise a right to
relief above the speculative level . . . on the assumption that all the allegations in the complaint are true
(even if doubtful in fact).” Id. (internal citations
omitted).

App.7a
In ruling on a Rule 12(b)(6) motion, a court
generally limits its review to the face of the pleadings.
See Spivey v. Robertson, 197 F.3d 772, 774 (5th Cir.
1999). However, a court may also consider documents
outside of the pleadings if they fall within certain
limited categories. First, a “court is permitted . . . to
rely on ‘documents incorporated into the complaint by
reference, and matters of which a court may take
judicial notice.’” Dorsey v. Portfolio Equities, Inc., 540
F.3d 333, 338 (5th Cir. 2008) (quoting Tellabs, Inc. v.
Makor Issues & Rights, Ltd., 551 U.S. 308, 322
(2007)). Second, a “written document that is attached
to a complaint as an exhibit is considered part of the
complaint and may be considered in a 12(b)(6) dismissal proceeding.” Ferrer, 484 F.3d at 780. Third, a
“court may consider documents attached to a motion
to dismiss that ‘are referred to in the plaintiff’s
complaint and are central to the plaintiff’s claim.’”
Sullivan v. Leor Energy, LLC, 600 F.3d 542, 546 (5th
Cir. 2010) (quoting Scanlan v. Tex. A & M Univ., 343
F.3d 533, 536 (5th Cir. 2003)). Finally, “[i]n deciding a
12(b)(6) motion to dismiss, a court may permissibly
refer to matters of public record.” Cinel v. Connick, 15
F.3d 1338, 1343 n.6 (5th Cir. 1994) (internal citations
omitted); see also, e.g., Funk v. Stryker Corp., 631
F.3d 777, 783 (5th Cir. 2011) (stating, in upholding
district court’s dismissal pursuant to Rule 12(b)(6),
that “the district court took appropriate judicial notice
of publicly-available documents and transcripts produced
by the [Food and Drug Administration], which were
matters of public record directly relevant to the issue
at hand.” (internal citations omitted)).

App.8a
III. The Court Grants the Motion
A. Title VII Claim
Baggett alleges that Oncor violated Title VII by
following a policy and practice of retaliation and
harassment against him based on his complaints
against his supervisor to Oncor’s Human Resources
Department. Am. Compl. ¶ 20. To establish a prima
facie Title VII retaliation case, a plaintiff must show:
(1) he was engaged in a protected activity; (2) he was
subjected to an adverse employment action; and (3)
there was a causal connection between the protected
activity and the adverse employment action. Hernandez
v. Yellow Transp., Inc., 670 F.3d 644, 657 (5th Cir.
2012). Oncor argues that Baggett’s Title VII claim
should be dismissed because (1) Baggett fails to state
a plausible claim and (2) Baggett never filed a Title
VII claim with the EEOC. Def.’s Mot. ¶¶ 7-9. The
Court will not address whether or not Baggett’s First
Amended Complaint sufficiently pleads a Title VII
claim because the Court finds that Baggett failed to
exhaust his administrative remedies as to his Title
VII claim.
Before Baggett can pursue a Title VII claim in
federal court, he must first exhaust his available
administrative remedies. See Taylor v. Books A Million,
Inc., 296 F.3d 376, 378-79 (5th Cir. 2002). Exhaustion
occurs when an individual files a timely complaint
with the EEOC, his claim is dismissed by that agency,
and the agency informs him of his right to sue in
federal court. 42 U.S.C. § 2000e-5(f)(1). An employee
may not base a Title VII claim on an action that was
not previously asserted in a formal charge of discrimination to the EEOC, or that could not be reasonably

App.9a
expected to grow out of the charge of discrimination.
Filer v. Donley, 690 F.3d 643, 647 (5th Cir. 2012). In
the Charge, Baggett checked only the box for discrimination based on age and stated:
I believe that I was not hired or promoted
because of my age (50) during my employment with Oncor. I believe that I have been
denied hire and promotion on at least (3)
separate occasions during my employment in
violation of the Age Discrimination in
[E]mployment Act of 1967, as amended.
Def.’s Mot., Ex. A. The allegations made in the Charge
do not mention any employment action taken by
Oncor or protected activity that could be interpreted
as asserting a claim under Title VII. There is no mention of retaliation in the narrative of the Charge. In
addition, Title VII has consistently required claimants
to fill in the appropriate corresponding boxes when
filing their claim for unlawful employment actions in
order to exhaust their administrative remedies. See
Miller v. Sw. Bell Tel. Co., 51 F. App’x 928, 2002 WL
31415083, at *6 (5th Cir. 2002).
Because Baggett has failed to exhaust his administrative remedies, his Title VII claim is dismissed
with prejudice.
B. ADEA Claim
Baggett alleges that Oncor followed a policy and
practice of discrimination against him because of his
age in violation of the ADEA. To establish a prima
facie case of age discrimination under the ADEA, a
plaintiff must show; (1) he is a member of a protected
class; (2) he was qualified for the position he held; (3)

App.10a
he was discharged; and (4) after his discharge he was
replaced with a person who is not a member of the
protected class. Brown v. Bunge Corp., 207 F.3d 776,
781 (5th Cir. 2000). For the fourth element, a plaintiff
must show that he was either (i) replaced by someone
outside the protected class, (ii) replaced by someone
younger, or (iii) otherwise discharged because of his
age. Id. Oncor argues that Baggett’s ADEA claim
should be dismissed because the Charge was untimely
filed with the EEOC, and Baggett therefore failed to
exhaust his administrative remedies. Def.’s Mot. ¶ 12.
If an EEOC charge is untimely filed, a suit based
upon the untimely charge should be dismissed. Barrow
v. New Orleans S.S. Ass’n, 932 F.2d 473, 476-77 (5th
Cir. 1991); see also Jones v. Tex. Juvenile Justice
Dep’t., 646 F. App’x 374, 375-76 (5th Cir. 2016)
(affirming district court’s dismissal of Title VII claims
where plaintiff failed to timely file a formal EEOC
charge); Benson v. Mary Kay Inc., No Civ. A. 3:06-CV1911-R, 2007 WL 1719927 (N.D. Tex. June 11, 2007)
(dismissing plaintiff’s Title VII and ADA claims where
EEOC dismissed charge filed same day as untimely).
Baggett filed the Charge with the EEOC on August
14, 2017. That same day, the EEOC dismissed the
Charge, indicating: “Your charge was not timely filed
with the EEOC; in other words, you waited too long
after the date(s) of the alleged discrimination to file
your charge.” Def.’s Mot., Ex. B.
In Texas, an employee must file an EEOC charge
within 300 days of the last act of alleged discrimination. 29 U.S.C. § 626(d)(1); Julian v. City of Hous.,
Tex., 314 F.3d 721, 726 (5th Cir. 2002). In limited
circumstances, the filing deadline is subject to equitable
doctrines such as tolling or estoppel. Kirkland v. Big

App.11a

Lots Store, Inc., 547 F. App’x 570, 573 (5th Cir. 2013)
(citing Zipes v. Trans World Airlines, Inc., 455 U.S.

385, 393 (1982)). The plaintiff has the burden of
providing a sufficient factual basis for tolling the filing
deadline. Id. (citing Conaway v. Control Data Corp.,
955 F.2d 358, 362 (5th Cir. 1992). The Fifth Circuit
has recognized at least three circumstances where
failure to timely file may be excused under the
equitable tolling doctrine: (1) a suit is pending between
the parties in the incorrect forum; (2) the claimant is
unaware of facts supporting her claim because the
defendant intentionally concealed them; and (3) the
claimant is misled by the EEOC or designated state
agency about her rights. Id. These factors do not constitute an exhaustive list—other circumstances could
justify equitable tolling. Id. at n.5.
The Court is unclear on how the EEOC reached
its decision to dismiss Baggett’s Charge as untimely
filed. The Charge indicates that the latest date
discrimination took place was March 29, 2017—138
days before Baggett filed the Charge with the EEOC.
See Def.’s Mot., Ex. A. In his First Amended Complaint,
Baggett alleges that he was denied jobs and promotions
he applied for from approximately October 18, 2016
until February 2017—300 to about 194 days before he
filed the Charge. See Am. Compl. ¶ 11. However, there
is no indication that Baggett appealed the EEOC’s
dismissal of the Charge. Baggett also did not address
the EEOC’s dismissal of the Charge in his First
Amended Complaint. Significantly, Baggett did not
respond to the Motion to Dismiss and did not argue for
equitable relief. Even if the Court were to ignore the
EEOC’s dismissal of the Charge as untimely, the
allegations in the First Amended Complaint are

App.12a
insufficient to state a claim of age discrimination
under the ADEA. Baggett has not sufficiently alleged
two of the elements—that he was qualified for the
position and that he was (i) replaced by someone
outside the protected class, (ii) replaced by someone
younger, or (iii) otherwise discharged because of his
age.
Because the EEOC dismissed Baggett’s charge as
untimely and the Court finds that Baggett fails to
sufficiently allege a claim of age discrimination, his
ADEA claim is dismissed with prejudice.
IV. Conclusion
The Court grants Oncor’s Motion to Dismiss in its
entirety. Baggett’s Title VII claim is dismissed with
prejudice. Baggett’s ADEA claim is dismissed with
prejudice. Baggett has already amended his pleadings
once, failed to respond to the Motion to Dismiss, and
did not request leave to amend from the Court. Therefore, the Court finds that allowing Baggett the opportunity to replead would be futile.
SO ORDERED.
SIGNED June 19, 2018.
/s/ Karen Gren Scholer
United States District Judge

App.13a
RELEVANT STATUTORY PROVISIONS
29 U.S.C. § 626—
RECORDKEEPING, INVESTIGATION, AND ENFORCEMENT
(a) Attendance of Witnesses; Investigations, Inspections, Records, and Homework Regulations
The Equal Employment Opportunity Commission
shall have the power to make investigations and
require the keeping of records necessary or appropriate for the administration of this chapter in
accordance with the powers and procedures provided in sections 209 and 211 of this title.
(b) Enforcement; Prohibition of Age Discrimination
Under Fair Labor Standards; Unpaid Minimum
Wages and Unpaid Overtime Compensation;
Liquidated Damages; Judicial Relief; Conciliation,
Conference, and Persuasion
The provisions of this chapter shall be enforced in
accordance with the powers, remedies, and procedures provided in sections 211(b), 216 (except for
subsection (a) thereof), and 217 of this title, and
subsection (c) of this section. Any act prohibited
under section 623 of this title shall be deemed to
be a prohibited act under section 215 of this title.
Amounts owing to a person as a result of a violation of this chapter shall be deemed to be unpaid
minimum wages or unpaid overtime compensation for purposes of sections 216 and 217 of this
title: Provided, That liquidated damages shall be
payable only in cases of willful violations of this
chapter. In any action brought to enforce this
chapter the court shall have jurisdiction to grant

App.14a
such legal or equitable relief as may be appropriate
to effectuate the purposes of this chapter, including
without limitation judgments compelling employment, reinstatement or promotion, or enforcing
the liability for amounts deemed to be unpaid
minimum wages or unpaid overtime compensation under this section. Before instituting any
action under this section, the Equal Employment
Opportunity Commission shall attempt to eliminate the discriminatory practice or practices
alleged, and to effect voluntary compliance with
the requirements of this chapter through informal
methods of conciliation, conference, and persuasion.
(c) Civil Actions; Persons Aggrieved; Jurisdiction;
Judicial Relief; Termination of Individual Action
Upon Commencement of Action by Commission;
Jury Trial
(1) Any person aggrieved may bring a civil action
in any court of competent jurisdiction for such
legal or equitable relief as will effectuate the
purposes of this chapter: Provided, That the right
of any person to bring such action shall terminate
upon the commencement of an action by the
Equal Employment Opportunity Commission to
enforce the right of such employee under this
chapter.
(2) In an action brought under paragraph (1), a
person shall be entitled to a trial by jury of any
issue of fact in any such action for recovery of
amounts owing as a result of a violation of this
chapter, regardless of whether equitable relief is
sought by any party in such action.

App.15a
(d) Filing of Charge with Commission; Timeliness;
Conciliation, Conference, and Persuasion; Unlawful Practice
(1) No civil action may be commenced by an
individual under this section until 60 days after a
charge alleging unlawful discrimination has been
filed with the Equal Employment Opportunity
Commission. Such a charge shall be filed—
(A) within 180 days after the alleged unlawful
practice occurred; or
(B) in a case to which section 633(b) of this title
applies, within 300 days after the alleged
unlawful practice occurred, or within 30 days
after receipt by the individual of notice of
termination of proceedings under State law,
whichever is earlier.
(2) Upon receiving such a charge, the Commission shall promptly notify all persons named in
such charge as prospective defendants in the
action and shall promptly seek to eliminate any
alleged unlawful practice by informal methods of
conciliation, conference, and persuasion.
(3) For purposes of this section, an unlawful
practice occurs, with respect to discrimination in
compensation in violation of this chapter, when a
discriminatory compensation decision or other
practice is adopted, when a person becomes
subject to a discriminatory compensation decision
or other practice, or when a person is affected by
application of a discriminatory compensation
decision or other practice, including each time
wages, benefits, or other compensation is paid,

App.16a
resulting in whole or in part from such a decision
or other practice.
(e) Reliance on Administrative Rulings; Notice of
Dismissal or Termination; Civil Action After
Receipt of Notice
Section 259 of this title shall apply to actions
under this chapter. If a charge filed with the
Commission under this chapter is dismissed or
the proceedings of the Commission are otherwise
terminated by the Commission, the Commission
shall notify the person aggrieved. A civil action
may be brought under this section by a person
defined in section 630(a) of this title against the
respondent named in the charge within 90 days
after the date of the receipt of such notice.
(f)

Waiver
(1) An individual may not waive any right or
claim under this chapter unless the waiver is
knowing and voluntary. Except as provided in
paragraph (2), a waiver may not be considered
knowing and voluntary unless at a minimum—
(A) the waiver is part of an agreement between
the individual and the employer that is
written in a manner calculated to be understood by such individual, or by the average
individual eligible to participate;
(B) the waiver specifically refers to rights or
claims arising under this chapter;
(C) the individual does not waive rights or claims
that may arise after the date the waiver is
executed;

App.17a
(D) the individual waives rights or claims only in
exchange for consideration in addition to
anything of value to which the individual
already is entitled;
(E) the individual is advised in writing to consult
with an attorney prior to executing the
agreement;
(F)
(i)

the individual is given a period of at
least 21 days within which to consider
the agreement; or

(ii) if a waiver is requested in connection
with an exit incentive or other employment termination program offered to a
group or class of employees, the individual is given a period of at least 45 days
within which to consider the agreement;
(G) the agreement provides that for a period of
at least 7 days following the execution of
such agreement, the individual may revoke
the agreement, and the agreement shall not
become effective or enforceable until the
revocation period has expired;
(H) if a waiver is requested in connection with an
exit incentive or other employment termination program offered to a group or class of
employees, the employer (at the commencement of the period specified in subparagraph
(F)) informs the individual in writing in a
manner calculated to be understood by the
average individual eligible to participate, as
to—

App.18a
(i)

any class, unit, or group of individuals
covered by such program, any eligibility
factors for such program, and any time
limits applicable to such program; and

(ii) the job titles and ages of all individuals
eligible or selected for the program, and
the ages of all individuals in the same
job classification or organizational unit
who are not eligible or selected for the
program.
(2) A waiver in settlement of a charge filed with
the Equal Employment Opportunity Commission, or an action filed in court by the individual
or the individual’s representative, alleging age
discrimination of a kind prohibited under section
623 or 633a of this title may not be considered
knowing and voluntary unless at a minimum—
(A) subparagraphs (A) through (E) of paragraph
(1) have been met; and
(B) the individual is given a reasonable period of
time within which to consider the settlement
agreement.
(3) In any dispute that may arise over whether
any of the requirements, conditions, and circumstances set forth in subparagraph (A), (B), (C),
(D), (E), (F), (G), or (H) of paragraph (1), or subparagraph (A) or (B) of paragraph (2), have been
met, the party asserting the validity of a waiver
shall have the burden of proving in a court of competent jurisdiction that a waiver was knowing
and voluntary pursuant to paragraph (1) or (2).

App.19a
(4) No waiver agreement may affect the Commission’s rights and responsibilities to enforce
this chapter. No waiver may be used to justify
interfering with the protected right of an employee
to file a charge or participate in an investigation
or proceeding conducted by the Commission.

App.20a
PLAINTIFF’S FIRST AMENDED
ORIGINAL COMPLAINT
(JANUARY 9, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
________________________
ERIC BAGGETT,

Plaintiff,
v.
ONCOR ELECTRIC DELIVERY COMPANY, LLC,

Defendant.

________________________

Civil Action No. 3:16cv03136-M
Before: Karen Gren SCHOLER,
United States District Judge
TO THE HONORABLE UNITED STATES DISTRICT
JUDGE:
COMES NOW, Eric Baggett (hereinafter “Plaintiff”), and complains of Oncor Electric Delivery Company LLC (hereinafter “Defendant”), and for cause of
action would show unto the Court the following:
I.

Jurisdiction and Venue

1. This Court has jurisdiction over the federal
claims asserted herein pursuant to 28 U.S.C. §§ 1331

App.21a
and 1343. In addition, Plaintiff invokes this Court’s
jurisdiction pursuant to the Age Discrimination in
Employment Act of 1967 (hereinafter “ADEA”), 29
U.S.C. 621 et seq. and Title VII of the Civil Rights Act
of 1964, 42 U.S.C. 2000-et seq. (hereinafter “Title
VII”).
2. Venue is proper in the Northern District of
Texas, Dallas Division, pursuant to 28 U.S.C. § 1391
because a substantial part of the events or omissions
giving rise to the claim occurred in this judicial
district.
II.

Parties

3. Plaintiff, Eric Baggett, is a 51-year-old male
citizen of the United States and a resident of Dallas
County, Texas. At all times relevant hereto, Plaintiff
was an employee of Defendant. Plaintiff has been
subjected to unlawful employment practices committed
in Dallas County, Texas by employees and agents of
the Defendant.
4. Defendant is a Delaware corporation doing
business in Dallas County, Texas, and an employer
within the meaning of the ADEA and Title VII.
Defendant may be noticed of this lawsuit by serving
CT Corporation System, 1999 Bryan Street, Suite 900,
Dallas, Texas 75201.
III. Exhaustion of Administrative Remedies
5. On or about July 7, 2017, Plaintiff filed a
charge of employment discrimination against Defendant
with the Dallas District Office of the Equal Employment
Opportunity Commission (hereinafter “EEOC”) within
300 days of the last discriminatory act. Any allegations

App.22a
in this action which pertain to events that occurred
after 300 days of the last discriminatory act pertain to
allegations of continuing violation.
6. On or about August 14, 2017, Plaintiff received
a “Notice of Right to Sue” concerning the charge,
entitling him to institute a civil action within 90 days
of the date of receipt of said notice. This action is
timely filed.
7. All conditions precedent to the filing of this
action have occurred or have been fulfilled.
IV. Factual Summary and Causes of Action
8. This action is authorized and instituted pursuant to the ADEA and Title VII. This is a proceeding
for legal and/or equitable relief available to secure the
rights of the Plaintiff under these statutes.
9. Plaintiff is a 51-year-old male who was employed
by Defendant from approximately August 26, 1996
until March 29, 2017. He is a member of the protected
groups within the meaning of the ADEA, based on his
age.
10. Plaintiff was hired by Defendant as a meter
reader and eventually made his way up to the position
of hold queue representative.
11. Plaintiff was unlawfully discriminated against
based on his age and denied promotions/hiring to the
positions of DSA, Designer, and Claims Adjuster
within Defendant’s organization. Each time Plaintiff
applied for these positions from approximately October
18, 2016 until February 2017, the position was given
to a younger, less qualified employee and/or contractor.
On or about October 30, 2016, Plaintiff sent an email

App.23a
to upper management regarding why himself and
other coworkers over the age of 50 were being denied
jobs/promotions. Plaintiff’s concerns were never
addressed.
12. From approximately January 2017 until March
29, 2017, Plaintiff was unlawfully retaliated against
in the form of suspension and subjected to a hostile
work environment based on his complaint to Defendant’s
Human Resources Department against Plaintiff’s
supervisor Jonathan Gaddes, which included complaints
regarding Mr. Gaddes’ negative treatment of employees
over the age of 50.
13. In January 2017, Plaintiff made a complaint
against his supervisor Jonathan Gaddes to Defendant’s
Human Resources Department regarding Mr. Gaddes
speaking extremely negative to Plaintiff and other
employees over the age of 50, as well as requiring such
employees to perform and complete work in an unreasonable amount of time. Shortly thereafter, Mr. Gaddes
began retaliating against and harassing Plaintiff by
giving Plaintiff massive amounts of work to complete
in an extremely short period of time, as well as giving
Plaintiff assignments which Plaintiff was not properly
trained to complete. Plaintiff was also given written
reprimands based on false reports made by Mr.
Gaddes.
14. On or about March 13, 2017, Plaintiff was
suspended without pay based on a false report made
by Mr. Gaddes. On March 29, 2017, Plaintiff was
notified that he was being terminated based on Mr.
Gaddes’ false report.
15. The factual allegations contained in all of the
paragraphs of this Original Complaint are hereby

App.24a
incorporated and re-alleged for all purposes and incorporated herein with the same force and effect as if set
forth verbatim.
16. This action is authorized and instituted pursuant to the ADEA and Title VII. This is a proceeding
for legal and/or equitable relief available to secure the
rights of the Plaintiff under these statutes.
17. Plaintiff was 50-years old during July 2016
and March 29, 2017. He is therefore a member of the
protected groups within the meaning of the ADEA.
18. Plaintiff was unlawfully discriminated against
based on his age and denied promotions/hiring to the
positions of DSA, Designer, and Claims Adjuster
within Defendant’s organization. Each time Plaintiff
applied for these positions from approximately October
18, 2016 until February 2017, the position was given
to a younger, less qualified employee and/or contractor.
On or about October 30, 2016, Plaintiff sent an email
to upper management regarding why himself and
other coworkers over the age of 50 were being denied
jobs/promotions. Plaintiff’s concern never addressed.
19. On information and belief, the Defendant
followed a policy and practice of discrimination against
Plaintiff because of his age in violation of the ADEA.
The discriminatory practices and policies include, but
are not limited to, discriminating against Plaintiff in
the terms, conditions, and privileges of employment
based on his age in violation of the ADEA.
20. On information and belief, the Defendant
followed a policy and practice of retaliation and
harassment against Plaintiff based on Plaintiff’s
complaints against his supervisor Jonathan Gaddes to

App.25a
Defendant’s Human Resources Department in violation
of Title VII.
21. Plaintiff has suffered compensatory damages
as the direct result of Defendant’s discrimination
based on age, retaliation and harassment. Plaintiff
would further show that the Defendant’s conduct was
done willfully and with malice and that he is entitled
to liquidated and exemplary damages.
22. Defendant’s conduct toward Plaintiff caused
him severe emotional distress, pain and suffering and/
or other nonpecuniary losses, for which Plaintiff seeks
past and future compensatory damages.
23. The express purposed of Congress in enacting
the ADEA were to “promote employment of older persons based on their ability rather than their age; to
prohibit arbitrary age discrimination in employment;”
and “to help employers and workers find ways of meeting problems arising from the impact of age on employment.” See 29 U.S.C. § 621. Congress specifically found:
(1) . . . older workers find themselves disadvantaged in their efforts to retain employment, and especially to regain employment
when displaced from jobs; (2) the setting of
arbitrary age limits regardless of potential
for job performance has become a common
practice, and certain otherwise desirable
practices may work to the disadvantage of
older persons; (3) the incidence of unemployment, especially long-term unemployment
with resultant deterioration of skill, morale,
and employer acceptability is, relative to the
younger ages, high among older workers;
their numbers are great and growing; and

App.26a
their employment problems grave . . .

See 29 U.S.C. § 621.
24. Plaintiff has indeed been disadvantaged in
his efforts to regain employment after displacement
from Defendant. Plaintiff has also suffered from longterm unemployment with resultant deterioration of
skill, morale, and employer acceptability.
V.

Damages

25. The amount of damages which Plaintiff seeks
herein exceeds the jurisdictional minimum of this
Court.
26. Plaintiff seeks statutory damages, back pay,
front pay and/or lost wages and benefits in the past
and future, all actual monetary losses, liquidated and
exemplary damages, attorney’s fees, expert witness
fees, costs, prejudgment and postjudgment interest
and such other and further legal and equitable relief
to which Plaintiff is entitled pursuant to the ADEA
and Title VII.
27. Plaintiff is entitled to actual damages, including pecuniary damages, mental anguish or emotional
pain and suffering, inconvenience, and loss of enjoyment of life in the past and in the future, and such
other and further relief to which Plaintiff is entitled
because of the actions and/or omissions complained of
herein.
VI. Jury Demand
28. Plaintiff respectfully requests a jury trial.

App.27a
VII. Prayer for Relief
WHEREFORE, PREMISES CONSIDERED, Plaintiff respectfully prays that Defendant be cited to
appear, and, that Plaintiff be awarded judgment
against Defendant for statutory damages, compensatory,
punitive and general damages, back pay, front pay
and/or lost wages and benefits in the past and future,
all actual monetary losses, liquidated damages,
attorney’s fees, expert witness fees, costs, prejudgment and postjudgment interest and such other and
further legal and equitable relief to which Plaintiff is
entitled.
Respectfully submitted,
/s/ Marshay Howard
Howard & Associates
State Bar Card No. 24083204
Uptown Tower
4144 N. Central Expressway, Suite 600
Dallas, Texas 75204
Telephone: (469) 458-3540
Facsimile: (972) 308-6011
mhoward@lawyersdemandingjustice.com
Attorney for Plaintiff

App.28a
NOTICE OF CHARGE OF DISCRIMINATION
(AUGUST 14, 2017)
U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
EEOC Charge No.: 450-2017-03812
________________________
Monica Knight
HR Manager
ONCOR
1616 Woodall Rodgers Frwy
Dallas, TX 75201
Person Filing Charge: Eric P. Baggett
THIS PERSON Claims to be Aggrieved
This is notice that a charge of employment discrimination has been filed against your organization
under:
☐ Title VII of the Civil Rights Act (Title VII)
☐ The Equal Pay Act (EPA)
☐ The Americans with Disabilities Act (ADA)
☒ The Age Discrimination in Employment Act
(ADEA)
☐ The Genetic Information Nondiscrimination Act
(GINA)
The boxes checked below apply to our handling of this
charge:
1. ☒ No action is required by you at this charge.
2. ☐ Please call the EEOC Representative listed below
concerning the further handling of this charge.

App.29a
3. ☐ Please provide by a statement of your position on
the issues covered by this charge, with copies of any
supporting documentation to the EEOC Representative listed below. Your response will be
placed in the file and considered as we investigate
the charge. A prompt response to this request will
make it easier to conclude our investigation.
4. ☐ Please respond fully by to the enclosed request for
information and send your response to the EEOC
Representative listed below. Your response will be
placed in the file and considered as we investigate the charge. A prompt response to this
request will make it easier to conclude our investigation.
5. ☐ EEOC has a Mediation program that gives parties
an opportunity to resolve the issues of a charge
without extensive investigation or expenditure of
resources. If you would like to participate, please
say so on the enclosed form and respond by
to
If you DO NOT wish to try Mediation, you must
respond to any request(s) made above by the date(s)
specified there.
For further inquiry on this matter, please use the
charge number shown above. Your position statement,
your response to our request for information, or any
inquiry you may have should be directed to:
Juan F. Munoz, Intake Supervisor
EEOC Representative
Dallas District Office
207 S. Houston St.
3rd Floor

App.30a
Dallas, TX 75202
Telephone: (214) 253-2774
Fax: (214) 253-2720
Enclosure: ☒ Copy of Charge
Circumstances of Alleged Discrimination:
☐
☐
☐
☐
☐
☒
☐
☐
☐
☐

Race
Color
Sex
Religion
National Origin
Age
Disability
Retaliation
Genetic Information
Other

See enclosed copy of charge of discrimination.
Signature
/s/ Juan F. Munoz
Name/Title of Authorized Official
Bellinda F. McCallister
Acting District Director
Date: August 14, 2017

App.31a
CHARGE OF DISCRIMINATION
(AUGUST 14, 2017)
This form is affected by the Privacy Act of 1974.
See enclosed Privacy Act Statement and other information before completing this form.
Charge Presented to: Agency(ies) Charge No(s):
☐ FEPA
☒ EEOC

450-2017-03812

State or local Agency, if any:


Texas Workforce Commission Civil Rights Division
and EEOC

Name: Mr. Eric P. Baggett
Home Phone: (972) 748-2231
Date of Birth: 1966
Street Address:
417 Fairweather Street,
Desoto, TX 75115
Named is the Employer, Labor Organization,
Employment Agency, Apprenticeship Committee, or
State or Local Government Agency That I Believe Discriminated Against Me or Others. (if more than two,
list under PARTICULARS below.)
Name: ONCOR
No. Employees Members: 500 or more
Phone No. (include Area Code): (214) 486-3550
Street Address:
1616 Woodall Rodgers Frwy,
Dallas, TX 75201

App.32a
Discrimination Based On:
☐
☐
☐
☐
☐
☐
☒
☐
☐
☐

Race
Color
Sex
Religion
National Origin
Retaliation
Age
Disability
Genetic Information
Other

Date(s) Discrimination took place


Earliest: 2015



Latest: 03-29-2017

☐ Continuing Action
The Particulars are:


I believe that I was not hired or promoted
because of my age-(50) during my employment
with Oncor.



I believe that I have been denied hire and promotion on at least (3) separate occasions
during my employment in violation of the Age
Discrimination in employment Act of 1967, as
amended.

I want this charge filed with both the EEOC and
the State or local Agency, if any. I will advise the
agencies if I change my address or phone number and
I will cooperate fully with them in the processing of
my charge in accordance with their procedures.

App.33a
I declare under penalty of perjury that the above
is true and correct.
/s/ Eric P. Baggett
Charging Party Signature
Date: August 14, 2017
NOTARY–When necessary for State and Local Agency
Requirements
I swear or affirm that I have read the above
charge and that it is true to the best of my knowledge,
information and belief.
/s/ Eric P. Baggett
Signature of Complainant
Subscribed and Sworn to before me this date
/s/ Juan F. Munoz

